Highlights
Table of Contents




                    Timeliness of Mail
                    Processing at the
                    Harrisburg, PA,
                    Processing and
Findings




                    Distribution Center


                    Management
Recommendations




                    Advisory Report
                    Report Number
                    NO-MA-14-005

                    September 16, 2014
Appendices




                                          Print
Highlights
Table of Contents




                    Highlights                                             Background                                                        process mail on time. For example, the Harrisburg P&DC has
                                                                                                                                             a June 2013 facility operating plan that does not reflect recent
                                                                           Excessive delayed mail adversely affects U.S. Postal Service
                                                                                                                                             consolidation activity. An up-to-date operating plan would reflect
                                                                           customers and harms the organization’s brand. The U.S.
                                                                                                                                             changes in processing operations and give management an
                                                                           Postal Service Office of Inspector General’s (OIG) Performance
                                                                                                                                             overview of the amount of mail projected to be cancelled. In
                                                                           and Risk Information System model identified the Central PA
                                                                                                                                             addition, there were not enough maintenance employees in
Findings




                           In FY 2014, Q1 there were                       District as having significant delayed mail volume. Analysis of
                                                                                                                                             FY 2014, Q3, which put operations at risk. Of the authorized
                                                                           delayed mail during fiscal year (FY) 2014, Quarter (Q)1 and Q2
                         98 million pieces of delayed                                                                                        189 maintenance positions, 64 were vacant, resulting in
                                                                           identified the Harrisburg Processing and Distribution Center
                                                                                                                                             less preventative maintenance and equipment breakdowns.
                       mail. The level of delayed mail                     (P&DC) as the plant most at risk for delayed mail, compared to
                                                                                                                                             Equipment was down for nearly 4,000 hours for mechanical
                                                                           similarly sized facilities.
                                                                                                                                             reasons in FY 2014, Q1and Q2, an increase of 12 percent over
                      decreased to 61 million pieces                                                                                         the same period last year.
                                                                           Our objective was to determine whether the Harrisburg P&DC
                       in Q2 and 16 million pieces in                      processed mail on time.
Recommendations




                                                                                                                                             Finally, additional supervisory employees are needed to ensure
                         Q3. Despite the FY 2014, Q3                                                                                         adequate oversight; nine of the 26 authorized supervisor and
                                                                           What the OIG Found                                                two of three manager, Distribution Operations, positions were
                                 improvement, there                                                                                          vacant in FY 2014, Q3.
                                                                           Although it has made improvements, the Harrisburg P&DC had
                            are still areas at risk that                   difficulties processing its mail on time.
                                                                                                                                             Delays in processing resulting from these areas at risk could
                        could make it difficult for the                    In FY 2014, Q1 there were 98 million pieces of delayed mail.      cause late mail delivery that could negatively impact service
                                                                           The level of delayed mail decreased to 61 million pieces in Q2    performance.
                                Harrisburg P&DC to
                                                                           and 16 million pieces in Q3. We attributed this improvement
                               process mail on time.                       largely to a lower volume of mail processed in Q3. The addition   What the OIG Recommended
                                                                           of 113 employees in Q2 and Q3 also contributed to this
                                                                                                                                             We recommended the senior plant manager update the
Appendices




                                                                           improvement.
                                                                                                                                             Harrisburg P&DC operating plan and fill maintenance and
                                                                                                                                             supervisor vacancies to authorized levels.
                                                                           Despite the FY 2014, Q3 improvement, there are still areas
                                                                           at risk that could make it difficult for the Harrisburg P&DC to

                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                                     Print                                    1
Highlights




                                                                               Areas at Risk
                                                                                     Harrisburg, PA P&DC
Table of Contents




                                                                                          Operating Plan
Findings




                                                                                  Supervision        Maintenance
Recommendations




                                                                           Despite improvements in FY 2014, Q3, there
                                                                           are still areas at risk that could challenge the
                                                                             Harrisburg P&DC’s ability to process mail
                                                                             on time. These areas include the facility’s
                                                                                out–of-date operating plan and an
Appendices




                                                                               insufficient number of maintenance
                                                                                     and supervisory employees.
                                                                                Hover over the stopwatch for details.

                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                              Print   2
Highlights
                    Transmittal Letter


                                                                           September 16, 2014
Table of Contents




                                                                           MEMORANDUM FOR:	           CHRISTOPHER L. ALEXANDER
                                                                                                      SENIOR PLANT MANAGER
                                                                                                           E-Signed by Robert Batta
                                                                           				                          VERIFY authenticity with e-Sign




                                                                           FROM: 			                  Robert J. Batta
                                                                           				                       Deputy Assistant Inspector General
                                                                           				                          for Mission Operations
Findings




                                                                           SUBJECT:	                  Management Advisory Report – Timeliness of Mail Processing
                                                                                                      at the Harrisburg, PA, Processing and Distribution Center
                                                                           	                          (Report Number NO-MA-14-005)

                                                                           This report presents the results of our review of the Timeliness of Mail Processing at the
                                                                           Harrisburg, PA, Processing and Distribution Center (Project Number 14XG016NO001).
Recommendations




                                                                           We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                                           questions or need additional information, please contact James L. Ballard, director, Network
                                                                           Processing and Transportation, or me at 703-248-2100.

                                                                           Attachment

                                                                           cc:	 Corporate Audit and Response Management
Appendices




                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                  Print                   3
Highlights
                    Table of Contents
                                                                           Cover
                                                                           Highlights.......................................................................................................1
                                                                            Background.................................................................................................1
                                                                            What the OIG Found...................................................................................1
                                                                            What the OIG Recommended.....................................................................1
Table of Contents




                                                                           Transmittal Letter...........................................................................................3
                                                                           Findings.........................................................................................................5
                                                                            Introduction.................................................................................................5
                                                                            Conclusion..................................................................................................5
                                                                            Harrisburg Delayed Mail.............................................................................6
                                                                            Areas at Risk...............................................................................................6
                                                                            Operating Plan............................................................................................6
                                                                            Maintenance...............................................................................................7
                                                                            Supervision.................................................................................................8
Findings




                                                                           Recommendations........................................................................................9
                                                                            Management’s Comments..........................................................................9
                                                                            Evaluation of Management’s Comments....................................................9
                                                                           Appendices..................................................................................................10
                                                                            Appendix A: Additional Information........................................................... 11
                                                                            Background .............................................................................................. 11
Recommendations




                                                                              Prior Delayed Mail..................................................................................12
                                                                              Customer Service...................................................................................13
                                                                            Objective, Scope, and Methodology.........................................................13
                                                                            Prior Audit Coverage.................................................................................14
                                                                            Appendix B: Management’s Comments....................................................16
                                                                           Contact Information.....................................................................................18
Appendices




                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                                     Print                      4
Highlights
                    Findings                                               Introduction
                                                                           This report presents the results of our self-initiated review of the Timeliness of Mail Processing at the Harrisburg, PA, Processing
                                                                           and Distribution Center (P&DC) in the Central PA District of the Eastern Area (Project Number 14XG016NO001). The U.S. Postal
                                                                           Service Office of Inspector General’s (OIG) Performance and Risk Information Systems (PARIS) risk model identified the
                                                                           Central PA District as having significant delayed mail volume in fiscal year (FY) 2014, Quarter (Q)1 and Q2. Analysis of delayed
                                                                           mail during FY 2014, Q1 and Q2 identified the Harrisburg P&DC as the plant most at risk for delayed mail, compared to similarly
                      Although the Harrisburg P&DC                         sized facilities.
Table of Contents




                           has made improvements,                          Our objective was to determine whether the Harrisburg P&DC processed mail on time.
                           there are still areas at risk
                                                                           See Appendix A for additional information about this review.
                        that could make it difficult to
                                                                           Conclusion
                               process mail on time.
                                                                           Although it has made improvements, the Harrisburg P&DC had difficulties processing its mail on time. In FY 2014, Q1, there were
                               The facility operating                      98 million pieces of delayed mail. The amount of delayed mail decreased to 61 million pieces in Q2 and 16 million pieces in Q3.
                                                                           We attributed this improvement largely to a lower volume of mail processed in Q3. The addition of 113 employees in Q2 and Q3
                           plan needs to be updated
                                                                           also contributed to this improvement.
                                 to reflect the recent
                                                                           Despite improvement in FY 2014, Q3, there are still areas at risk that could make it difficult for the Harrisburg P&DC to process
                              consolidation activity.
Findings




                                                                           mail on time. For example, it has a facility operating plan dated June 2013 that does not reflect recent consolidation activity. An
                                                                           up-to-date operating plan would refelct changes in processing operations and give management an overview of the amount of
                              Distribution Operation
                                                                           mail projected to be cancelled. In addition, there were not enough maintenance employees at the facility in FY 2014, Q3, which
                               supervisor vacancies                        put operations at risk. Of the authorized 189 positions, 69 were vacant, resulting in less preventative maintenance and equipment
                                                                           breakdowns. Equipment was down for nearly 4,000 hours for mechanical reasons in FY 2014, Q1and Q2, an increase of
                          need to be filled to ensure                      12 percent over the same period last year (SPLY).

                             adequate oversight and                        Finally, additional supervisory employees are needed to ensure adequate oversight, as nine of the 26 authorized supervisor and
Recommendations




                               maintenance position                        two of three manager, Distribution Operations, positions were vacant in FY 2014, Q3.

                       vacancies need to be filled for                     Delays in processing as a result of these areas at risk could cause late mail delivery that could negatively impact service performance.

                              increased preventative
                                maintenance of mail
                             processing equipment.
Appendices




                    Timeliness of Mail Processing at the Harrisburg, PA,   This report has not yet been reviewed for release under FOIA or the Privacy Act. Distribution should be limited to those within the Postal Service with a need to know.
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                                                              Print                                             5
Highlights                                                                 Harrisburg Delayed Mail
                                                                           During our observations, we found a minimal amount of delayed mail. From May 19-24, 2014, there were a total of
                                                                           218,083 delayed mailpieces, which represented 0.85 percent of first-handled piece (FHP)1 volume. We determined the Harrisburg
                                                                           P&DC properly counted all delayed mail volume and accurately reported it in the Web Mail Condition Reporting System.2 The
                                                                           amount of delayed mail began to decrease at the start of FY 2014, Q3. This is also the time the Harrisburg P&DC experienced a
                                                                           decline in the amount of FHP volume (see Table 1).

                                                                           Table 1. Harrisburg Delayed Mail and FHP Trend
Table of Contents
Findings




                                                                           Source: Enterprise Data Warehouse (EDW).



                                                                           Comparable sites also showed a significant decrease in delayed mail as a result of the volume decline during Q3, with an overall
                                                                           decrease in delayed mail of 66 percent from Q2. Staffing was also a contributing factor. Harrisburg P&DC management hired
Recommendations




                                                                           113 additional employees at the end of FY 2014, Q2 and the beginning of FY 2014, Q3.

                                                                           Areas at Risk
                                                                           Despite improvements in FY 2014, Q3, there are still areas at risk that could challenge the Harrisburg P&DC’s ability to process
                                                                           mail on time. These areas include the facility’s out-of-date operating plan and an insufficient number of maintenance and
                                                                           supervisory employees.

                                                                           Operating Plan
                                                                           The Harrisburg P&DC did not update its official June 2013 operating plan, including procedures for arrival and clearance times, to
                                                                           take recent consolidations into account. Consequently, employees did not have the information they needed to plan mail flow to
Appendices




                                                                           avoid delays.



                                                                           1	   A letter, flat, or parcel that receives initial distribution at a postal facility. FHP records mail volume in the operation where it receives its first distribution handling.
                                                                           2	   The Web Mail Condition Reporting System is a repository of mail condition data entry and reporting.
                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                                                                              Print                                              6
Highlights                                                                 An updated operating plan would reflect changes in processing operations and give management an overview of the amount of
                                                                           mail projected to be cancelled. Mail was arriving at the Harrisburg P&DC for cancellation as late as 10 p.m., which made it difficult
                                                                           for the plant to clear the mail in time to meet processing standards. For example, Postal Service standards as identified in the
                                                                           24-hour clock require 80 percent of mail to be cancelled by 8 p.m.3 Our analysis showed the Harrisburg P&DC cancelled only
                                                                           about 47 percent of the mail by 8 p.m. and 69 percent by Operations’ clearance time, which is the latest time committed mail
                                                                           can clear an operation for proper dispatch or delivery.

                                                                           Maintenance
Table of Contents




                                                                           There are not enough maintenance employees at the Harrisburg P&DC to support mail processing. Of the 189 authorized
                                                                           maintenance positions, 64 were vacant in FY 2014, Q3 (see Table 2).

                                                                           Table 2. Harrisburg P&DC Maintenance Complement

                                                                                                Position                            Approved            On Rolls           Vacant
                                                                            Electronic Technician                                        30                29                   -1
                                                                            Mail Processing Equipment Mechanic                           35                25                 -10
                                                                            Maintenance Mechanic                                         47                 12                -35
                                                                            Building Equipment Mechanic                                  16                 14                  -2
Findings




                                                                            Area Maintenance Technician                                    3                 2                  -1
                                                                            Custodian                                                    50                 37                -13
                                                                            Maintenance Support Clerk                                      8                 6                  -2
                                                                            Total                                                       189               125                 -64
                                                                            Source: webCOINS.


                                                                           As a result of these staffing shortages in FY 2014, Q3, preventative maintenance for major pieces of equipment declined from
Recommendations




                                                                           the SPLY (See Table 3).

                                                                           Table 3. Harrisburg P&DC Preventative Maintenance Completion Rates

                                                                                                                                         FY 2013,          FY 2014,           Percent    FY 2013,   FY 2014,   Percent
                                                                                                   Machine                                 Q1                Q1               Change       Q2         Q2       Change
                                                                            Advanced Facer Canceller System                                 99.9              93.5              -6.4      100.0       94.8      -5.17
                                                                            Advanced Facer Canceller System 200                             99.8              98.7              -1.2      100.0       99.3       -.69
                                                                            Automated Flats Sorting Machine 100                             99.7              96.2              -3.5       99.0       96.3      -3.59
                                                                            Automated Package Processing System                             99.2              89.3              -9.9       99.0       90.9      -8.1
Appendices




                                                                            Delivery Barcode Sorter                                         99.5              92.4              -7.0       99.8       93.9      -5.9
                                                                            Source: eMARS.


                                                                           3	   The 24-hour clock is an end-to-end process that ensures mail is collected, distributed, and delivered.
                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                                                            Print                        7
Highlights                                                                 The decline in preventative maintenance led to frequent machine breakdowns, which delayed mail. We found machines were
                                                                           down for nearly 4,000 hours for mechanical reasons in FY 2014, Q1 and Q2, which is an increase of 12 percent compared to
                                                                           the SPLY.

                                                                           Staffing shortages in the maintenance department also led to employees working excessive hours. The weekly overtime rate for
                                                                           the maintenance department was over 36 percent and maintenance employees worked an average of 53 hours per week. This
                                                                           led to projected earnings for 47 maintenance employees of more than $100,000, with 24 of these employees earning more than
                                                                           $150,000 for the year, when the average annual maintenance salary is $66,142.
Table of Contents




                                                                           Supervision
                                                                           Because of inadequate staffing, supervisors of Distribution Operations (SDO) were working more than 50 hours per week. Of the
                                                                           26 authorized SDO positions, nine were vacant. Additionally, the senior manager, Distribution Operations, position was vacant and
                                                                           only one of the two authorized manager, Distribution Operations, positions was filled. Overall, 69 percent of authorized executive
                                                                           and administration schedule positions in mail processing were filled. The ratio of supervisors to employees was 1:39, which is
                                                                           inconsistent with the supervisor’s span of control target of 1:25.
Findings
Recommendations
Appendices




                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                                     Print                                  8
Highlights
                    Recommendations                                        We recommend the senior plant manager, Harrisburg Processing and Distribution Center:

                                                                           1.	 Update the Harrisburg Processing and Distribution Center’s operating plan to accurately reflect consolidations.

                                                                           2.	 Fill maintenance and supervisor vacancies up to authorized levels.


                          We recommend the senior                          Management’s Comments
                                                                           Management agreed with our findings and recommendations.
Table of Contents




                           plant manager update the
                                                                           Regarding recommendation 1, management has submitted the updated operating plan for approval. The target completion date is
                         Harrisburg P&DC operating
                                                                           September 26, 2014.
                       plan and fill maintenance and
                                                                           Regarding recommendation 2, management has filled five maintenance positions through FY 2014, Q3 and will complete
                               supervisor vacancies                        interviews and testing for additional maintenance staff by September 19, 2014. An external register for hiring will also be available
                                                                           by FY 2015, Q1, although compliance with collective bargaining agreements may cause a delay. The target completion date is
                                to authorized levels.
                                                                           April 30, 2015.

                                                                           Additionally, management has filled three of the nine supervisor, Distribution Operations, positions and will hire successful
                                                                           applicants resulting from a recent job posting to fill the remaining positions. The target completion date is October 18, 2014.
                                                                           Finally, management has filled two manager, Distribution Operations, positions and will repost the senior manager,
Findings




                                                                           Distribution Operations, position. The target implementation date is September 16, 2014.

                                                                           See Appendix B for management’s comments in their entirety.

                                                                           Evaluation of Management’s Comments
                                                                           The OIG considers management’s comments responsive to the recommendations and corrective actions should resolve the issues
Recommendations




                                                                           identified in the report.
Appendices




                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                                       Print                                       9
Highlights
                    Appendices
                                                                           Appendix A: Additional Information........................................................... 11
                                                                            Background ........................................................................................... 11
                                                                              Prior Delayed Mail...............................................................................12
                          Click on the appendix title                         Customer Service...............................................................................13
                                                                            Objective, Scope, and Methodology.......................................................13
Table of Contents




                           to the right to navigate to
                                                                            Prior Audit Coverage..............................................................................14
                                the section content.
                                                                           Appendix B: Management’s Comments....................................................16
Findings
Recommendations
Appendices




                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                              Print                     10
Highlights          Appendix A:                                            Background
                    Additional Information                                 The Harrisburg P&DC is in the Central PA District in the Eastern Area. The Postal Service owns the facility, which covers
                                                                           609,000 square feet, has two floors, and is equipped with three freight elevators. Figure 1 shows the Eastern Area districts by
                                                                           3-digit ZIP Code™.

                                                                           Figure 1. Districts with ZIP Codes in the Eastern Area
Table of Contents




                                                                                                                                                                                Western
                                                                                                                                                                                                           Eastern Area
                                                                                                                                                                                New York                   February 2014
                                                                                                                                                                                 140 - 149

                                                                                                                                                                                  Central                      Harrisburg
                                                                                                                                                                       Western    Pennsylvania
                                                                                                                                          Northern Ohio                Pennsylvania
                                                                                                                                                    434 - 436, 439 –   150 - 168, 260        169 - 188,
                                                                                                                                                           449, 458                          195 - 196       South
                                                                                                                                                                                                             Jersey
                                                                                                                                            Ohio Valley                                                   077, 080 - 087,
                                                                                                                                                                                                          197 - 199

                                                                                                                                        410, 430- 433, 437 – 438,
                                                                                                                                        450 – 457, 459, 470    Appalachian
                                                                                                                                                               240 - 243, 245
                                                                                                                                                               - 259, 261 -
                                                                                                                                                               268
                                                                                                                                   Kentuckiana
Findings




                                                                                                                       400 - 409, 411 - 418, 420 - 427,
                                                                                                                       471, 476, 477




                                                                                                                       Tennessee
                                                                                                                      307, 370 - 385
Recommendations




                                                                           Excessive delayed mail adversely affects Postal Service customers. The Postal Service considers mail to be delayed when it is
                                                                           not processed or dispatched to meet its established delivery day.

                                                                           The President’s Commission on the U.S. Postal Service report, dated July 31, 2003, states that the mission of the Postal Service is:

                                                                           “. . .	 to provide high-quality, essential postal services to all persons and communities by the most cost-effective and efficient
                                                                           means possible at affordable and, where appropriate, uniform rates.”

                                                                           Title 39 U.S.C., Part 1, Chapter 4, §403, states:

                                                                           “The Postal Service shall plan, develop, promote, and provide adequate and efficient postal services at fair and reasonable
Appendices




                                                                           rates and fees.”




                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                                                                           Print            11
Highlights                                                                 Prior Delayed Mail
                                                                           In FY 2014, Q1 and Q2, the Harrisburg P&DC had over 159 million delayed mailpieces. Also, in FY 2014, Q1 and Q2, the
                                                                           Harrisburg P&DC’s delayed mail volume increased by nearly 156 million mailpieces over the SPLY (see Table 4). Comparable
                                                                           facilities averaged 12.5 million delayed mailpieces during the same time.

                                                                           Table 4. Harrisburg P&DC Delayed Mail Comparison

                                                                                 Time Period                Delayed Mail
Table of Contents




                                                                           FY 2013, Q1 and Q2                   3,620,132
                                                                           FY 2014, Q1 and Q2               159,455,914
                                                                           Increase                         155,835,782
                                                                           Source: EDW.


                                                                           The Harrisburg P&DC ranked high in delayed mail compared to 37 similarly sized facilities. For example, in FY 2014, Q1 and Q2,
                                                                           the Harrisburg P&DC ranked highest among comparable plants with:

                                                                           ■■ 159 million delayed mailpieces;

                                                                           ■■ 750,000 delayed Priority mailpieces;
Findings




                                                                           ■■ 8.5 million delayed Periodicals mailpieces; and

                                                                           ■■ 144 million delayed Standard mailpieces.

                                                                           In addition, the Harrisburg P&DC ranked second highest among 37 comparable plants in late First-Class Mail with 5.9 million
                                                                           delayed mailpieces.
Recommendations
Appendices




                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                                   Print                                 12
Highlights                                                                 Customer Service
                                                                           There are areas at risk at the Harrisburg P&DC that have the potential to negatively affect customer service. For example, as
                                                                           a result of past delayed mail, customer service in the Central PA District has declined. In FY 2014, Q2, all categories of service
                                                                           decreased from the SPLY. In particular, performance fell for Periodicals, Priority Surface, and EXFC4 3-Day mail (see Table 5).

                                                                           Table 5. Central Pennsylvania Service Scores
                                                                                                                                FY 2013                                    FY 2014
                                                                                                                       Q1                   Q2                     Q1                     Q2
Table of Contents




                                                                            EXEC Overnight                            96.41                96.02                  94.56                  95.33
                                                                            EXEC 2-Day                                95.03                94.89                  92.52                  92.38
                                                                            EXEC 3-Day                                89.59                91.01                  84.60                  85.48
                                                                            Priority Air                              63.78                73.65                  75.20                  72.62
                                                                            Priority Surface                          80.77                86.95                  86.16                  79.25
                                                                            Periodicals                               83.08                84.74                  59.72                  65.86
                                                                            Standard                                  79.70                85.16                  78.70                  80.99
                                                                            Green font shows improvement; red font shows a decline.

                                                                            Source: EDW and the Times Transit Measurement System.
Findings




                                                                           Delays in mail processing contributed to a decline in the overall percentage of mail that arrived in delivery point sequence (DPS)
                                                                           at the delivery units. In the first 2 quarters of FY 2014, the percentage of DPS5 mail decreased compared to SPLY. Specifically:

                                                                           ■■ In Q1, the percentage of DPS mail was 91.43 compared to 92.96 percent for the SPLY.

                                                                           ■■ In Q2, the percentage of DPS mail was 91.76 compared to 92.96 percent for the SPLY.
Recommendations




                                                                           Objective, Scope, and Methodology
                                                                           Our objective was to determine whether the Harrisburg P&DC processed mail on time. To meet our objective, we conducted
                                                                           interviews; examined applicable Postal Service policies and procedures; and analyzed mail volume, workhours, and machine run
                                                                           times. We also analyzed trends and conducted observations at the Harrisburg P&DC.

                                                                           We conducted this review from March through September 2014, in accordance with the Council of the Inspectors General on
                                                                           Integrity and Efficiency, Quality Standards for Inspection and Evaluation. We discussed our observations and conclusions with
                                                                           management on August 1, 2014, and included their comments where appropriate.
Appendices




                                                                           4	   External First Class Measurement
                                                                           5	   The goal is to have 95 percent of mail in DPS. The higher the percentage, the less mail carriers have to sort manually.
                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                                                                    Print       13
Highlights                                                                 To conduct this review, we relied on computer-processed data maintained by Postal Service operations systems, which included
                                                                           the Web Mail Condition Reporting System, EDW, the Web Complement Information System, the WebEOR System, and the
                                                                           Management Operating Data System. A review of the OIG’s Performance and Risk Information Systems (PARIS) risk model
                                                                           identified the Central PA District as one with significant delayed mail volume.6

                                                                           We did not test the validity of controls over these systems; however, we verified the accuracy of the data by confirming our
                                                                           analysis and results with Postal Service managers.

                                                                           Prior Audit Coverage
Table of Contents




                                                                                                                                                                                            Monetary Impact
                                                                            Report Title                                                      Report Number             Final Report Date     (in millions)
                                                                            Timeliness of Mail Processing at
                                                                            the Boston, MA, Processing and                                     NO-AR-14-007                 5/19/2014            None
                                                                            Distribution Center
                                                                            Report Results:
                                                                            Our report found the Boston P&DC did not always process mail on time, with about 28 million delayed mailpieces in FY 2014, Q1,
                                                                            representing a 56 percent increase in delayed mail compared to the SPLY. The majority of delayed mail was due to implementation
                                                                            errors associated with the Middlesex Essex P&DC consolidation. These errors included having an outdated operating plan; and
                                                                            not acquiring additional handling equipment, properly scheduling employees, enforcing proper color-coding of mail, and properly
                                                                            supervising mail flow. Consequently, service scores in Boston declined and the percentage of carriers reporting back after 5 p.m.
Findings




                                                                            increased by 25 percent during FY 2014, Q1. We recommended the vice presidents, Network Operations and Northeast Area,
                                                                            expedite material handling requests for the Boston P&DC, update the Boston P&DC operating plan, adjust staffing and scheduling
                                                                            of employees, train employees on proper color coding, and train supervisors on expediting mail flow. Management agreed with
                                                                            our recommendations.
                                                                            Timeliness of Mail Processing at
                                                                            the Hartford, CT, Processing and                                   NO-AR-13-009                 9/30/2013            None
                                                                            Distribution Center
                                                                            Report Results:
Recommendations




                                                                            Our report found the Hartford P&DC experienced difficulties processing First-Class and Standard Mail on time during FY 2013, Q1
                                                                            and Q2. For example, the Hartford P&DC delayed 34.4 million mailpieces and had the most delayed First-Class Mail and the second
                                                                            most delayed Standard Mail compared to similar facilities. About 37 percent of the delayed mail was the result of severe weather,
                                                                            which included Hurricane Sandy in October 2012 and a blizzard in February 2013. However, the majority of delayed mail was due
                                                                            to two major operational issues. Consequently, service scores declined and there was an increased risk that some customers
                                                                            would seek alternative delivery or advertising methods that could result in revenue loss. We recommended adjusting planning and
                                                                            scheduling to accommodate mail volume, especially during holiday periods, and ensuring earlier mail arrival that allows timely
                                                                            processing. Management agreed with the recommendations.
Appendices




                                                                           6	   The PARIS model identifies districts that are at risk from an operational standpoint.
                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                                                    Print                       14
Highlights
                                                                                                                                                                                      Monetary Impact
                                                                           Report Title                             Report Number                   Final Report Date                   (in millions)
                                                                           Timeliness of Mail Processing
                                                                           at Processing and Distribution            NO-AR-12-010                        9/28/2012                       $17,330,587
                                                                           Centers
                                                                           Report Results:
                                                                           Our report found that, in FY 2012, the Postal Service made significant progress reducing the amount of delayed mail at its 43 largest
                                                                           P&DCs and improved service performance scores measured by the Intelligent Mail Accuracy and Performance System. Through FY
Table of Contents




                                                                           2012, Q3, about 1.4 billion mailpieces were delayed, while about 3.5 billion mailpieces were delayed in FY 2011. We identified issues
                                                                           that contributed to mail delays, including improper color-coding, inaccurate reporting, underutilized automation, floor congestion,
                                                                           incomplete operating plans, and a lack of mail inventory visibility. We recommended the Postal Service evaluate operations to reduce
                                                                           delayed mail in the network and ensure that field personnel are properly trained in color-coding Standard Mail and counting and
                                                                           reporting delayed mail in accordance with policy. We also recommended the Postal Service increase investment in and employee
                                                                           access to tools necessary to assist in identifying potential mail processing problems that could result in delayed mail. Management
                                                                           agreed with our recommendations.
                                                                           Timely Processing of Mail at
                                                                           the Pittsburgh, PA, Processing           NO-AR-12-008                         9/18/2012                           None
                                                                           and Distribution Center
                                                                           Report Results:
                                                                           Our report found that the Pittsburgh P&DC experienced difficulty processing mail on time in FY 2011, particularly Standard
Findings




                                                                           Mail. Among the 43 largest Postal Service facilities, the Pittsburgh P&DC ranked second highest in delayed mail, with more
                                                                           than 12 percent of mail delayed. We recommended the Postal Service adjust workhours, assignments, and other operational
                                                                           requirements to ensure the Pittsburgh P&DC processes mail timely compared to similarly sized facilities. We also recommended the
                                                                           Postal Service increase the capacity and throughput of tray sorters, expand windows of operation, improve mail flow throughout the
                                                                           facility, and train employees to ensure proper color-coding of Standard Mail. Management agreed with our recommendations.
Recommendations
Appendices




                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                                       Print                                  15
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                           Print   16
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                           Print   17
Highlights
Table of Contents
Findings




                                                                              Contact us via our Hotline and FOIA forms, follow us on social
                                                                           networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                                  or abuse. Stay informed.
Recommendations




                                                                                                 1735 North Lynn Street
                                                                                                Arlington, VA 22209-2020
                                                                                                      (703) 248-2100
Appendices




                    Timeliness of Mail Processing at the Harrisburg, PA,
                    Processing and Distribution Center
                    Report Number NO-MA-14-005
                                                                                                                                                    Print   18
